No. 19-423

 

IN THE

Supreme Court of the United States

BRIAN KIRK MALPASSO AND MARYLAND STATE
RIFLE AND PISTOL ASSOCIATION, INC.,

Petitioners,

Vv.

WILLIAM M. PALLOZZI, in his official capacity as
Maryland Secretary of State Police,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,999 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 8, 2020.

Colin Casey ee

Wilson-Epes Printing Co., Inc.
